  Office Of inspectOr General
Semiannual Report to Congress




           OctObEr 1, 2009 — March 31, 2010




                                      DOE/IG-0058
Semiannual Report to Congress




                            Table of Contents
 Message from the Inspector General............................................................... 1

 Key Accomplishments.......................................................................................... 3

 Recovery Act Reports.......................................................................................... 5

 Other Significant Audits, Inspections, and Reviews................................... 9

 Investigative Outcomes..................................................................................... 15

 Positive Results.................................................................................................... 19
 Highlights Based on Office of Inspector General Work ..............................................19
 Congressional Responses .............................................................................................. 20
 Hotline System.................................................................................................................. 20
 Management Referral System ....................................................................................... 20
 Qui Tams .......................................................................................................................... 21
 Legislative and Regulatory Reviews.................................................................................. 21

 Appendix 1 – Reports........................................................................................23
 Recovery Act Reports Issued.......................................................................................... 23
 Audit Reports Issued .......................................................................................................24
 Inspection Reports Issued.............................................................................................. 27

 Appendix 2 - Tables............................................................................................29
 OIG Issued Audit Reports with Recommendations for Better Use of Funds.................. 29
 OIG Issued Audit Reports with Questioned Costs...................................................... 30
 Reports Lacking Management Decision........................................................................31
 Prior Significant Recommendations Not Implemented................................................31
 Summary of Inspections and Special Inquiries Activities............................................ 32
 Summary of Investigative Activities................................................................................ 33



                                                        October 1, 2009 – March 31, 2010
                                                                                                                                          iii
Semiannual Report to Congress




                            this page intentionally left blank




       Department of Energy – Office of Inspector General
 iv
Semiannual Report to Congress



                  Message
                  from the Inspector General

                                      The Department of Energy’s Office of Inspector
                                      General is pleased to submit its Semiannual Report
                                      to Congress for the period ending March 31, 2010.
                                      This report highlights key accomplishments of the
                                      Office, particularly pertaining to our efforts to work
                                      with agency management to ensure the economy,
                                      efficiency, and effectiveness of Department of Energy
                                      (Department) operations.
                                           During this reporting period, much of our focus
                                      centered on the Department’s implementation of
                                      the American Recovery and Reinvestment Act of
 2009 (Recovery Act). Under the Recovery Act, the Department received $36.7 billion
 for various science, energy and environmental programs and initiatives. For the
 period ending March 2010, the Office of Inspector General issued a number of reports
 associated with the Department’s implementation and execution of its Recovery Act
 responsibilities. These are discussed in the body of this document.
      In addition to our Recovery Act-related work, the Office of Inspector General
 continues its efforts in other vital Department sectors, including areas such as
 environmental remediation, stockpile stewardship, worker and community safety, cyber
 security and various aspects of contract and program management. We look forward
 to working with program officials and Department management in our mutual effort to
 ensure that the interests of U.S. taxpayers are a priority as the Department undertakes its
 critically important missions.


    						
    							
    							                                            Gregory H. Friedman
    							                                            Inspector General




                                       October 1, 2009 – March 31, 2010
                                                                                               1
Semiannual Report to Congress




                            this page intentionally left blank




       Department of Energy – Office of Inspector General
 2
Semiannual Report to Congress



                 Key Accomplishments
                 For the Period of October 1, 2009 – March 31, 2010




  Public Reports Issued — Recovery Act, Audit, and Inspection            34


  Dollars Put to Better Use                                       $1,108,077

  Questioned Costs                                               $22,674,903

  Hotline Complaints and Inquiries                                      854


  Criminal Convictions                                                   19

  Suspensions/Debarments                                                  9

  Civil/Administrative Actions Taken                                     66

  Open Qui Tam Investigations                                            12

  Potential Recoveries from Qui Tams                            $306,425,000


  Dollars Recovered (Fines/Settlements/Recoveries)               $11,408,290




                                  October 1, 2009 – March 31, 2010
                                                                           3
Semiannual Report to Congress




                            this page intentionally left blank




       Department of Energy – Office of Inspector General
 4
Semiannual Report to Congress




                     Recovery Act Reports

 Problems with Implementing the
                                                     ➤➤   Illinois officials had not
 Weatherization Assistance Program
                                                          complied with the Department’s
 Under the Recovery Act, the Department’s                 requirements for inspecting
 Weatherization Assistance Program                        weatherization work conducted by
 (Program) received $5 billion to improve                 local agencies; and,
 the energy efficiency of homes owned or
 occupied by low income persons, reduce              ➤➤   A weatherization inspection for
 their total residential expenditures, and                one of the local agencies failed to
 improve their health and safety. Because of              detect substandard installation
 the unprecedented level of funding and the               of energy saving materials. This
 risks associated with spending vast amounts              case involved a furnace gas leak
 of money in a relatively short period of                 that could have resulted in serious
 time, we initiated a series of audits designed           injury to the occupants and
 to evaluate the Program’s internal control               material damage to the structure.
 structures at both the Federal and state
 levels. To begin our series of audit work, we         Because of the importance of this
 initiated a review of the Program internal       program in stimulating the economy,
 controls for the State of Illinois. During our   creating jobs, and improving the quality
 audit work, we identified significant internal   of life in low income households, we
 control deficiencies in the management           continued our series of audit work
 of the Weatherization Program in Illinois        by initiating a review to provide the
 which required immediate attention.              Department with an interim status report
 Specifically, our interim audit revealed:        highlighting factors impacting progress in
                                                  meeting the Program and Recovery Act
     ➤➤   Significant problems with on-site       goals.
          monitoring and inspection of the             While the Department had taken a
          Illinois Home Weatherization            number of proactive steps to foster timely
          Assistance Program. We noted that       implementation of the Program, grantees
          the Department had not fulfilled its    had made little progress in weatherizing
          requirement to perform monitoring       homes. As of February 2010, the one-year
          visits at the State level;              anniversary of the Recovery Act, only a




                                        October 1, 2009 – March 31, 2010
                                                                                                5
Semiannual Report to Congress

small percentage of Recovery Act weatherization        and planned mitigation strategies that, if
funds had been spent and few homes had                 successfully implemented and executed, should
actually been weatherized:                             help achieve the goals and objectives of the
                                                       Recovery Act. While each office identified risks
   ➤➤   Only $368.2 million (less than 8               unique to its respective areas of responsibility,
        percent) of the total award of $4.73           there were a number of risks shared in common.
        billion had been drawn by grantees for         These included the risk that the award and
        weatherization work; and,                      distribution of funds, program and project
                                                       performance monitoring, and program and
   ➤➤   Corresponding to the low spending rates,       project execution activities would not be
        grant recipients fell significantly short of   accomplished correctly. Our review confirmed
        goals to weatherize homes.                     that the Department had begun to implement a
                                                       number of strategies designed to mitigate these
     In short, the Nation had not realized             and other program-specific risks. Our testing,
the potential economic benefits of the $5              however, identified challenges to the effective
billion in Recovery Act funds allocated to the         implementation of these mitigation strategies
Program. The job creation impact of what was           that need to be addressed if the Department is
considered to be one of the Department’s most          to meet the goals and objectives established by
“shovel ready” projects had not materialized,          the Recovery Act. In response to our findings,
and modest income home residents had not               program officials acted promptly to address
enjoyed the significant reductions in energy           these problems by modifying or improving
consumption and improved living conditions             their risk mitigation strategies. Specifically, the
promised as part of the massive Recovery Act           Department:
weatherization effort.
     The Department responded that it continues           ➤➤   Established the Office of Risk
to “ramp up” to achieve the full impact of this                Management within the Office of the
important program. Management expressed                        Chief Financial Officer and issued
its resolve to work diligently to achieve                      Department-wide guidance for risk
robust spending while maintaining proper                       management efforts; and,
programmatic oversight.
(OAS-RA-10-02, OAS-RA-10-04)                              ➤➤   Improved information technology
                                                               systems for tracking financial
                                                               information and project
Departmental Program Efforts to
                                                               performance.
Implement the Recovery Act
We initiated this review to determine whether              Our report included a number of
the Department’s major program offices had             recommended actions that the Department
developed an effective approach for identifying        should take to address the challenges that
and mitigating risks related to achieving the          remain. Management generally concurred with
goals and objectives of the Recovery Act. The          the report’s recommendations and agreed to take
Department’s program offices identified risks          corrective action. (OAS-RA-10-03)


            Department of Energy – Office of Inspector General
   6
Semiannual Report to Congress

Security Improvements Needed for
                                                   specifies that Federal agencies should develop
WinSAGA
                                                   and implement formal procedures to help
As a result of the Recovery Act, the Department    ensure the quality of reported information.
received $8.1 billion for formula grant            We completed an interim review to determine
programs supporting housing weatherization         whether the Department had established a
and energy efficiency. To aid in making            process to ensure the quality and accuracy of
incremental funding decisions, the Department      recipient reports. Our audit found that the
will track recipients’ performance through         Department had developed a quality assurance
the Windows System Approach to Grants              process to facilitate the quarterly reviews of
Administration (WinSAGA). WinSAGA,                 recipient data. We did, however, identify several
a custom-designed information system, is           issues which could, if not addressed, impact the
utilized by the Department and more than           effectiveness of the quality assurance process.
70 state-level program offices to collect,         Specifically, we found that:
organize, distribute, and report a wide array of
information relating to the energy formula grant      ➤➤   OMB requirements are periodically
programs. We initiated an audit to determine               changing and uncertainty exists
whether current system resources and controls              regarding the quality and timeliness
were adequate. Our review determined that                  of recipient reporting; therefore, the
WinSAGA, as currently configured, appeared                 Department may need to adjust its
to be capable of processing the additional                 quality assurance plan;
formula grant transactions resulting from the
Recovery Act. However, we did identify certain        ➤➤   Although officials told us that they
security concerns with the system that could               believed their plan was adequate for
increase the risk of compromise of grant data.             addressing systemic or chronic reporting
Specifically, controls over system access were             problems, there were several issues of
not appropriate; appropriate system backup and             concern related to the process, such
recovery procedures had not been implemented;              as the lack of a coordinated approach
and, security planning documentation and                   for remediating reporting problems
control testing were incomplete and contained              and unclear roles for addressing such
several inconsistencies. Management                        problems; and,
indicated that steps were being taken to
address the issues identified in our report.          ➤➤   Officials had not developed a
(OAS-RA-10-05)                                             coordinated plan for utilizing recipient
                                                           data as a management tool for assessing
                                                           risk, determining compliance with award
Development of a Data Quality
                                                           terms, and determining when to release
Assurance Process
                                                           remaining funds.
The Office of Management and Budget (OMB)
requires that recipients report on their receipt       Management concurred with our findings
and use of Recovery Act funds on a quarterly       and recommendations and pledged to develop
basis to www.FederalReporting.gov. OMB also        corrective actions. (OAS-RA-10-01)


                                         October 1, 2009 – March 31, 2010
                                                                                                7
Semiannual Report to Congress

Critical Delays in the ENERGY STAR                   the Environmental Protection Agency, which
Program                                              shares responsibility with the Department for
                                                     management of the program, addressed the
ENERGY STAR, a voluntary labeling program            issues raised in our report. (DOE/IG-0827)
established in 1992, provides consumers with
efficiency data to aid them in selecting energy
efficient products, thereby helping to meet the      Management Challenges
Nation’s goal of reducing energy consumption.        Each year, the Office of Inspector General
We initiated this audit to determine whether the     (OIG) identifies what it considers to be the most
Department had implemented actions it had            significant management challenges facing the
announced in 2007 to strengthen the ENERGY           Department. This effort highlights those programs
STAR Program. Our audit disclosed that the           and operations that are, in our judgment, the most
Department had not:                                  difficult to manage as well as those with the most
                                                     significant demonstrated performance problems.
   ➤➤   Developed a formal quality assurance         The OIG determined that the most serious
        program to help ensure that product          challenges facing the Department are in the areas
        specifications were adhered to;              of:
                                                         ➤➤   Contract Administration
   ➤➤   Effectively monitored the use of the
        ENERGY STAR label to ensure that                 ➤➤   Cyber Security
        only qualifying products were labeled as
        compliant; and,                                  ➤➤   Energy Supply

                                                         ➤➤   Environmental Cleanup
   ➤➤   Formalized procedures for establishing
        and revising product specifications and          ➤➤   Human Capital Management
        for documenting decisions regarding              ➤➤   Recovery Act Implementation
        those specifications.
                                                         ➤➤   Safeguards and Security
    The delay in the Department’s planned                ➤➤   Stockpile Stewardship
improvements in its management of the
ENERGY STAR Program could reduce consumer                 In addition, we have identified a “watch list,”
confidence in the integrity of the ENERGY            consisting of issues that do not currently meet
STAR label, thus reducing energy savings,            our threshold of being classified as management
increasing consumer risk, and diminishing the        challenges, but warrant continued attention by
value of the recent infusion of $300 million for     Department management. This year, the watch
ENERGY STAR rebates under the Recovery Act.          list includes: Infrastructure Modernization and
Management generally agreed with our audit           Worker and Community Safety.
findings and recommendations for corrective          (DOE/IG-0832)
action and noted that the Department’s recently
updated Memorandum of Understanding with




            Department of Energy – Office of Inspector General
   8
Semiannual Report to Congress



                   Other Significant Audits,
                   Inspections, and Reviews

 Cyber Security Program                        Federal Energy Regulatory
                                               Commission’s Cyber Security
 As required by the Federal Information
                                               Program
 Security Management Act (FISMA)
 of 2002, the OIG conducts an annual           As required by FISMA, we conducted
 independent evaluation to determine           an annual independent evaluation to
 whether the Department’s unclassified         determine whether the Federal Energy
 cyber security program adequately             Regulatory Commission’s (Commission)
 protects its information systems and data.    cyber security program adequately
 Our evaluation disclosed that most sites      protects its information systems and data.
 had taken action to address weaknesses        Our evaluation revealed that additional
 previously identified in our Fiscal Year      actions are necessary to help ensure
 2008 evaluation report. They improved         the Commission’s network systems and
 certification and accreditation of systems;   data are adequately protected against
 strengthened configuration management         increasingly sophisticated cyber security
 of networks and systems; developed and        attacks. Specifically, we found that:
 refined certain policies and procedures;
 and, performed independent assessments.          ➤➤   Policies and procedures for
 In addition, the Department instituted a              handling and protecting certain
 centralized incident response organization            types of sensitive data had not been
 designed to eliminate duplicative efforts.            developed and implemented;
 We did, however, identify opportunities
 for improvement in areas such as security        ➤➤   The process for identifying,
 planning and testing, systems inventory,              tracking, and correcting identified
 access controls, and configuration                    security weaknesses did not fully
 management. Management concurred                      adhere to Federal requirements and
 with our recommendations to correct                   corrective actions were not always
 these security deficiencies and indicated             completed in a timely manner; and,
 that it had initiated or already completed
 actions. (DOE/IG-0828)                           ➤➤   Access controls had not been fully
                                                       implemented for the Commission’s
                                                       major information systems.




                                      October 1, 2009 – March 31, 2010
                                                                                              9
 Semiannual Report to Congress

    Management concurred with our                     agreed to address many of these issues.
recommendations to strengthen controls                (DOE/IG-0831)
and disclosed that it had initiated or already
completed actions to address weaknesses
                                                      Inconsistencies Found in the
identified in our report. (DOE/IG-0830)
                                                      Department’s Human Reliability Program
                                                      We initiated this audit to determine whether
Enhancements Needed for the Office
                                                      the Department’s Human Reliability Program
of Science Information Technology
                                                      was being administered effectively. Our audit
Resources
                                                      identified inconsistencies in the application
We initiated this audit to determine whether the      of program requirements throughout the
Office of Science (Science) adequately managed its    Department involving alcohol and drug-
information technology (IT) resources. Science        related duty restrictions and the certification
had taken a number of actions to improve its cyber    of Reliability Program managers. Specifically,
security posture and align its program to Federal     we identified differences in the methodologies
requirements. Yet, our review disclosed that it had   used by Department sites to restrict Reliability
not taken some basic steps to enhance security and    Program certified individuals from performing
reduce costs. In particular, we found that Science:   critical duties based on the use of judgment
                                                      impairing prescription medications. In addition,
    ➤➤   Had implemented security configurations      we noted inconsistencies in the application of the
         that were less stringent than those          Department regulation regarding the consumption
         designed by the National Institute of        of alcohol prior to reporting for duty and variations
         Standards and Technology and mandated        in site requirements for the certification of
         by OMB;                                      Reliability Program management positions.
                                                      Management generally concurred with our
    ➤➤   Had not fully established or enforced        recommendations to address these issues and
         IT hardware standards for acquiring          has planned appropriate corrective actions.
         hardware such as desktop and laptop          (OAS-M-10-01)
         computers or related peripherals,
         contributing to significant unnecessary
                                                      Managing the Disposition of
         expenditures; and,
                                                      Uranium-233
    ➤➤   Had not implemented a common                 We initiated this audit to determine whether
         infrastructure for users at its Federal      the Department had adequately managed the
         sites and continued to maintain an           disposition of Uranium-233 (U-233). Our
         IT environment independent of the            results found that the Department’s U-233
         Department’s Common IT Operating             disposition project: (1) had encountered a number
         Environment.                                 of design delays, (2) may exceed original
                                                      cost estimates, and (3) will likely not meet
We made several recommendations to address            completion milestones. Specifically, our testing
issues identified in this report and management       disclosed that despite 4 years of effort by the


             Department of Energy – Office of Inspector General
  10
Semiannual Report to Congress

Office of Environmental Management and               The Department Did Not Take
the expenditure of about $36 million, project        Advantage of Seismic/Geological Data
planning and design had yet to be completed          When Designing Nuclear Facilities
and the cost baseline was approved relying on
inaccurate assumptions and, thus, likely to          We initiated this audit to determine whether
be unreliable. Management agreed with our            the Department had ensured the use of the
recommendations, the interest of which was to        best available seismic and geological data in
control costs and increase the likelihood that the   the design of its nuclear facilities. Our review
project is completed in a timely and successful      established that the Department had not always
manner. (DOE/IG-0834)                                achieved this goal. Specifically, the Department
                                                     had not used the best available, site-specific
                                                     data and methodologies in the design of two
Adjustments Needed to Security
                                                     major nuclear facilities at the Hanford and the
Posture for Special Nuclear Materials at
                                                     Savannah River Sites. The Department invested
Sandia National Laboratory
                                                     approximately $745 million and roughly 5
In response to the Department’s announcement         years of effort to remediate resulting seismic
to evaluate missions at sites that consolidate       issues. We suggested that management (1)
Special Nuclear Material (SNM), Sandia               accumulate current site-specific, seismic-related
National Laboratory (Sandia) reported a              data and methodologies in a centralized format
reduction of its on-site inventory of nuclear        for greater accessibility, and (2) provide access
material below “Categories I and II” levels,         to site-specific data to design contractors to
which require the highest level of security          ensure that known conditions are disclosed and
to protect material such as plutonium and            addressed. (OAS-L-10-01)
highly enriched uranium. We initiated an
inspection to determine whether Sandia made
                                                     Work for Others by DOE
appropriate adjustments to its security posture
in response to the removal of the Categories         The National Defense Authorization Act for
I and II SNM. Our review found that Sandia           Fiscal Year 2009 required the Inspector General
made adjustments, such as the closing of             of the Department of Defense (DoD) and the
security posts; excessing unneeded protective        Department to review procurement methods to
force weapons and equipment from the site;           determine whether the Department complied
and modifying the Safeguards and Security            with DoD procurement requirements or
Plan at Sandia. We also found highly enriched        whether alternative procurement policies were
uranium, designated as Category III material         in place. In response, we focused our review on
using an official methodology, was not removed       Work for Other (WFO) projects performed by
from Sandia. We recommended that expedited           the National Nuclear Security Administration
action be taken to formalize this methodology        (NNSA) because it completes the vast majority
in the Department’s directives system and            (approximately $900 million in FY 2008) of the
disseminated throughout the Departmental             Department’s work for DoD. Our review revealed
complex. Management concurred with our               that NNSA managed DoD WFO technical projects
recommendations. (DOE/IG-0833)                       in a manner consistent with requirements of the


                                          October 1, 2009 – March 31, 2010
                                                                                                11
 Semiannual Report to Congress

Atomic Energy Act of 1954, as amended, and the       the employment status of all employees in
Federal Acquisition Regulations, including the       accordance with Federal requirements, and (2) if
Department of Energy Acquisition Regulations.        unauthorized individuals accessed the site. We
Because of the very nature of the Department’s       found that subcontractors failed to utilize the
management and operating contracting model,          “Employment Eligibility Verification Form” (I-9
WFO projects may not be technically compliant        Form) to determine worker eligibility. We also
with DoD procurement regulations in certain          found that I-9 forms in our sample were missing
instances. In particular, NNSA did not let new       key elements, including the subcontractor’s
contracts or task orders for the DoD WFO             affirmation that the identity documentation
technical projects we reviewed and instead           was reviewed and appeared authentic, and the
managed them under its existing internal             employee’s signature affirming that employment
control process as part of its management and        information was correct. Management
operating contract structure.                        concurred with our recommendations designed
    Given the importance of the work products        to enhance the employment verification process
resulting from the collaborations between            at the Savannah River Site. (INS-O-10-01)
the Department and DoD, we concluded
that identifying avenues to improve these
                                                     Improvements Needed for Lawrence
relationships would serve the national
                                                     Livermore National Laboratory
interest. In particular, the Department
                                                     (Livermore) Protective Force Staffing
needs to ensure that external customers are
                                                     Levels
furnished with cost and other information
needed to manage their projects and that roles       We initiated an inspection to determine if
and responsibilities for monitoring technical        Lawrence Livermore National Security (LLNS)
performance are adequately defined. We               management violated the minimum staffing
made several recommendations designed to             requirements contained in Livermore’s Security
improve management of the Department’s               Incident Response Plan (SIRP). We found that
WFO process. Management concurred with the           LLNS was in violation of requirements when
recommendations and indicated that corrective        Livermore transitioned to a new SIRP standard
actions were in process.                             concerning Security Police Officer staffing.
(DOE/IG-0829)                                        We suggested that the Livermore Site Office
                                                     coordinate with Livermore security management
                                                     to take action to improve oversight of staffing
Enhancements Made to Employment
                                                     levels for daily shift assignments and to ensure
Verification at the Savannah River Site
                                                     staffing levels are consistently met under the new
The Immigration Reform and Control Act of            requirements. (INS-L-10-01)
1986 makes it illegal for entities and individuals
to knowingly hire, continue to employ, or
recruit unauthorized workers—individuals
who are not eligible to work in the United
States. We conducted a review to determine (1)
if Savannah River Site subcontractors verified


            Department of Energy – Office of Inspector General
  12
 Semiannual Report to Congress

Review of Allegations Involving
Potential Misconduct at the Savannah
River Site

We initiated a fact-finding inquiry into
matters concerning improprieties by a senior
official within the Office of Environmental
Management. The allegations involved potential
violations of political activity restrictions, lack of
impartiality in performing official duties, misuse
of position, and other related misconduct. We
determined that Environmental Management
activities and the Savannah River Site were
operated in a manner inconsistent with the
objective of maintaining credibility and
public confidence. We recommended that the
Department take prompt action to address these
concerns. (OIG No. S09IS024)




                                             October 1, 2009 – March 31, 2010
                                                                                13
Semiannual Report to Congress




                            this page intentionally left blank




       Department of Energy – Office of Inspector General
 14
Semiannual Report to Congress




                   Investigative Outcomes

   Multi-Million Dollar Settlement                Former Department Subcontractor
   Reached in the Sale of Defective               Sentenced for Submission of False
   Body Armor                                     Statements

   As previously reported, a joint                A joint investigation with the Department of
   investigation was conducted into               Health and Human Services OIG found that
   allegations that a body armor                  a Department subcontractor and its president
   manufacturer knowingly participated in         falsified the purity levels of peptides sold
   the manufacturing and sale of defective        to hundreds of public and private research
   body armor containing Zylon. The body          institutions across the United States. The
   armor company sold this defective body         corporate president pled guilty to 1 count of
   armor to the Department as well as to          making a False Statement, and was sentenced
   other Federal, state, local, and tribal law    to 8 months incarceration and 36 months
   enforcement agencies. Three separate           supervised release and was ordered to pay a
   companies that provided component parts        total of $100,000 in fines and restitution. The
   of the armor previously agreed to pay a        company was ordered to pay a $20,000 fine.
   total of $46 million to resolve allegations
   that they violated the False Claims Act.
                                                  Four Individuals Sentenced in
       During this reporting period, a fourth
                                                  Connection with Destruction at an
   company agreed to pay $6.75 million
                                                  Energy Facility
   to resolve allegations that it violated
   the False Claims Act by knowingly              An OIG investigation determined that four
   importing defective Zylon fiber used in        individuals shot at and downed Bonneville
   the manufacture of body armor sold to          Power Administration (BPA) transmission
   the U.S. Government. Also, during this         lines, causing a power outage. BPA incurred
   reporting period, a fifth company agreed       repair costs and experienced lost power
   to pay $4 million to resolve allegations       revenue. The individuals, who have no
   that it violated the False Claims Act          affiliation to the Department, pled guilty
   in connection with its role in weaving         to 1 count of Destruction of Government
   defective Zylon fabric sold to the ballistic   Property and were sentenced to 5 years
   vest manufacturers.                            probation and ordered to pay a total of more
                                                  than $13,000 in restitution.




                                       October 1, 2009 – March 31, 2010
                                                                                                 15
 Semiannual Report to Congress

Pre-Trial Diversion in False Claims                    Former Contractor Employee Sentenced
Investigation                                          for Theft of Government Property
An investigation determined that two Los Alamos        An investigation determined that a contractor
National Laboratory (Los Alamos) employees             employee at the Department’s Idaho National
created and submitted fraudulent receipts for          Laboratory (INL) stole approximately 165 items
reimbursable lodging and travel expenses, resulting    including a John Deere tractor and various hand
in payments to which they were not entitled.           and power tools valued at over $22,000 from
Both employees were placed into the state of New       the Department. The property was recovered
Mexico’s Pre-Prosecution Diversion Program for a       during the course of the investigation. The
period of between six months and two years. One        individual’s employment was terminated. The
employee was also required to pay restitution to the   former contractor employee pled guilty to 1 felony
Department in the amount of $4,193.                    count of Theft of Government Property and was
                                                       sentenced to 3 years probation, 4 months electronic
                                                       monitoring and 80 hours of community service.
Former NNSA Subcontractor Employee
Pled Guilty
                                                       Former Department Manager Pled Guilty
A subcontractor employee at the NNSA’s
                                                       to Conflict of Interest
Savannah River Site pled guilty in Federal District
Court, District of South Carolina, to one count of     A former mid-level Department manager and her
False Statements. The investigation determined         spouse pled guilty to Conflict of Interest and False
the employee made false statements to support          Statements, respectively. The manager was tasked
his eligibility to receive per diem and long term      in 2006 with overseeing the renovation of a lobby
temporary assignment benefits while working as         and conference room, including the acquisition
a NNSA subcontractor employee on the Mixed             of new furniture for these spaces. In 2008, the
Oxide Fuel Fabrication Facility project. The false     manager oversaw the renovation of the cafeteria in
statements resulted in the individual fraudulently     the Department’s headquarters in Washington, DC.
receiving $81,547.78 in benefits to which he was       The investigation determined that in both instances,
not entitled. The individual resigned from his         the Department manager improperly directed
employment. Sentencing is pending.                     Government furniture and other contracts to
                                                       companies affiliated with her spouse. The manager
                                                       resigned from her position. Sentencing is pending.
Individual’s Employment Terminated for
Theft of Government Property
                                                       Former Sandia Subcontractor Pled Guilty
As a direct result of an OIG investigation, an         to Possession of Child Pornography
individual’s employment at Livermore was
terminated. The contractor employee admitted           A Sandia subcontractor employee pled guilty in the
to stealing a high volume of printer cartridges        U.S. District Court of New Mexico to possession of
from the Laboratory for personal sale on the           child pornography. The investigation determined
internet. The estimated loss to the Government         the employee misused his Government-owned
is $30,000.                                            computer by viewing child pornography images


            Department of Energy – Office of Inspector General
  16
Semiannual Report to Congress

brought from home on a personal thumb drive          at Los Alamos, the individual attempted to take
and used his Government-owned computer to            irradiated gold from a Los Alamos plutonium
communicate with other persons involved in child     processing facility. The individual’s employment
pornography. The subcontractor’s employment          was terminated. This is a joint investigation with
was terminated. This is a joint investigation with   the FBI. Sentencing is pending.
Immigration and Customs Enforcement, the
Federal Bureau of Investigation (FBI), and the New
                                                     INL Subcontractor’s Employment
Mexico Internet Crimes Against Children Task
                                                     Terminated
Force. Sentencing is pending.
                                                     An INL subcontractor’s employment was
                                                     terminated after he was arrested and charged with
Former INL Contractor Employee Pled
                                                     three counts of Lewd Conduct with a Minor by the
Guilty
                                                     Idaho Falls Police Department, Bonneville County,
A former INL contractor employee pled guilty in      Idaho. He was suspected of using Government-
Idaho Falls State Court to Exploitation of Child     owned computer equipment to facilitate his
Pornography. The investigation determined            activities. The OIG’s Technology Crimes Section
that while employed at INL the individual            provided computer forensics support for this
used a Government-owned computer to access           investigation and determined that Government-
numerous images of child erotica from photo          owned computers had not been involved.
sharing websites. The individual’s employment was
terminated. Sentencing is pending.
                                                     Investigative Report to Management
                                                     Issued to NNSA
Individual Pled Guilty to Trespass and Theft
                                                     As previously reported, an OIG investigation
A joint investigation between the Department         determined that a former subcontractor employee
and the Plymouth County Sheriff ’s Department        at the Department’s Pantex facility submitted false
determined that two private citizens burglarized     travel and time and attendance claims on behalf
the Department’s Western Area Power                  of company employees and himself from October
Administration’s Sioux City Substation located in    2007 to June 2008. The estimated dollar loss to
Sioux City, Iowa. The estimated damages exceeded     the Government was $170,000. The employee was
$8,000. One individual pled guilty in Plymouth       convicted on 16 counts of False Claims, 11 counts
County, State of Iowa District Court, to one count   of Forged or Altered Public Records, 1 count of
of Trespass and one count of Second Degree Theft.    Theft of Public Money, and 1 count of Wire Fraud.
Sentencing is pending.                                    During this reporting period, an investigative
                                                     report was issued to the NNSA’s Director of Office
                                                     of Acquisition and Supply Management, and the
Former Los Alamos Employee Pled Guilty
                                                     NNSA Manager of the Pantex Site Office, regarding
A former Los Alamos employee pled guilty to one      the former Pantex subcontractor employee. In
count of Theft of Government Property in U.S.        response to the report, the Director issued a
District Court for the District of New Mexico. The   Notice of Suspension to the former subcontractor
investigation determined that while employed         employee and his company.


                                          October 1, 2009 – March 31, 2010
                                                                                                  17
 Semiannual Report to Congress


Former Government Employee and                        Two Department Subcontractor
his Brother Sentenced for Theft of                    Employees Pled Guilty to Mail Fraud
Department Property
                                                      As previously reported, a joint investigation with
As previously reported, an investigation determined   the FBI determined that a subcontractor official,
that an individual, while employed at the Federal     along with other co-conspirators, used the U.S.
Aviation Administration (FAA), misused a              Postal Service to submit invoices and obtain
Government computer system to improperly obtain       payments from a Federal Energy Regulatory
surplus items from other Federal agencies for the     Commission grantee for work not performed.
employee’s and a family member’s personal use.        Two grantee and two subcontractor employees
The surplus items included a backhoe from Los         pled guilty and were sentenced. Another
Alamos and other items from Sandia and Western        subcontractor employee was debarred, along with
Area Power Administration. The family member          his wife, and two associated companies. During
was convicted of Mail and Wire Fraud, Theft, and      this reporting period, two other subcontractor
Unlawful Monetary Transactions.                       employees involved in the scheme pled guilty
    During this reporting period, the FAA             to one count each of mail fraud. One of the 2
employee pled guilty to Wire Fraud and Theft of       subcontractor employees was sentenced to 6
Honest Services. This is an ongoing investigation     months incarceration (time served), supervised
with the General Services Administration OIG and      probation until his deportation to Canada and a
several other Federal law enforcement agencies.       $100 assessment fee. Sentencing for the second
                                                      subcontractor employee is pending.
Prior Convicted Felon Sentenced for
Possessing Weapons at a NNSA Facility                 Implementation of Corrective Action
                                                      Taken in Response to Y-12 Security
As previously reported, a joint OIG investigation
                                                      Officers Theft Case
with the FBI and Drug Enforcement
Administration (DEA) determined that two              As previously reported, a joint investigation with
individuals trespassed onto the Y-12 complex. At      the FBI, DEA, and the Smith County Sheriff’s
the time, the individuals, both prior convicted       Department determined that a former security
felons with no affiliation to the Department,         police officer stole multiple items from the Y-12
were found to have a loaded firearm and               complex. The investigation also determined that
methamphetamine equipment in their vehicle.           the person used anabolic steroids.
Both individuals pled guilty to Federal charges           During this reporting period, Department
for possession of a firearm and ammunition.           management implemented corrective action in
One of the individuals was sentenced. During          response to an OIG investigative report. Among
this reporting period, the second individual was      other actions, the contractor implemented a
sentenced to 15 years and 8 months incarceration      policy requiring all new hires to be tested for
and 4 years supervised release.                       anabolic steroids. Testing was also implemented
                                                      as part of the company’s random drug testing
                                                      program for employees.




            Department of Energy – Office of Inspector General
  18
Semiannual Report to Congress




                   Positive Results

 Highlights Based on Office                         user accounts to ensure that access
 of Inspector General Work                          levels were limited to those needed
                                                    to perform job duties; made
 During this report period, the Department          changes to the system to enforce
 took positive actions as a result of OIG           rules related to password changes
 work conducted during the current or               and complexity; and, modified
 previous periods. Consistent with our              their backup storage arrangements
 findings and recommendations:                      to ensure that system data was
                                                    appropriately secured at all times.
    ➤➤   The Office of Environmental                (OAS-RA-10-05)
         Management developed a
         management plan for the Recovery      ➤➤   NNSA issued guidance regarding
         Act Program. The Office of                 the availability of cost information
         General Counsel provided                   to Federal agencies and identified
         guidance on appropriate interaction        roles and responsibilities on WFO
         between federal personnel and              agreements. These actions, if fully
         union officials. The Chief of the          implemented, should result in more
         Human Capital Office conducted a           visible cost information and clearly
         review on communication/conflict           defined roles and responsibilities to
         issues between Headquarters and            monitor WFO performance.
         Savannah River Site officials and          (DOE/IG-0829)
         presented recommendations and
         observations to senior Department     ➤➤   In December 2009, in response to
         officials. (S09IS024)                      concerns regarding waste disposal
                                                    capacity, the Department obtained
    ➤➤   The Office of Energy Efficiency and        a conditional permit from the state
         Renewable Energy took action to            of Nevada to build and operate a
         correct many of the deficiencies           new mixed waste disposal cell at
         related to system access, system           the Nevada Test Site, which will
         backup and recovery, and security          have a capacity of 25,000 cubic
         documentation and testing                  meters. In February 2010, the
         noted in our WinSAGA report.               Nevada Test Site awarded a $9.7
         Specifically, management reviewed          million subcontract for design and




                                    October 1, 2009 – March 31, 2010
                                                                                       19
 Semiannual Report to Congress

         construction of the new mixed waste           respond concerning the actions taken on 41
         disposal cell. The design for the new         of these complaints. Otherwise, Department
         mixed waste cell is set to be submitted in    management was asked to respond only if it
         July 2010, with the facility scheduled to     developed information or took action that it
         open in February 2011. (OAS-L-09-17)          believed should be reported. The following
                                                       referrals demonstrate management’s use of
    ➤➤   Department officials revised the quality      OIG-provided information to promote positive
         assurance process for the receipt and use     change or to take decisive action:
         of Recovery Act funds to ensure program
         and field officials review and utilize           ➤➤   In response to a complaint of time and
         additional data reported.                             attendance irregularities, the NNSA
         (OAS-RA-10-01)                                        substantiated an allegation that an
                                                               employee used sick leave for other
                                                               than its intended purpose. In addition,
Congressional Responses                                        another employee was disciplined for
                                                               time and attendance issues.
During this reporting period, the OIG provided
information at the request of Congress in 46              ➤➤   A complainant raised allegations of
instances and briefed congressional staff on 8                 unsanitary conditions at the East
occasions.                                                     Tennessee Technology Park. In
                                                               response, Department contractors took
                                                               action to eradicate mice and implement
Hotline System                                                 repairs and upgrades. Contractor
                                                               quality assurance and environment,
The OIG operates a Hotline System to facilitate                safety and health professionals will also
the reporting of allegations involving the                     conduct follow-up inspections to ensure
programs and activities under the auspices of                  conditions remain acceptable.
the Department. During this reporting period,
the Hotline received 2,056 contacts (calls, letters,      ➤➤   In response to allegations of misuse
e-mails, walk-ins, and Qui Tams), of which 854                 of aircraft services resources, BPA
were processed as complaints. The OIG Hotline                  implemented changes in aircraft
System can be reached by calling 1-800-541-                    scheduling to improve utilization, cost
1625 or 1-202-586-4073.                                        effectiveness, and to be more responsive
                                                               to agency needs.

Management Referral System                                ➤➤   A complainant raised allegations of
                                                               discriminatory hiring practices by a
The OIG referred 107 complaints to Department                  Paducah Site contractor. In response
management and other Government agencies                       to these allegations, the contractor was
during this reporting period and specifically                  directed to adopt formal hiring practices,
requested Department management to                             hire additional human resource


             Department of Energy – Office of Inspector General
  20
Semiannual Report to Congress

        personnel to prevent hiring backlogs          Legislative and Regulatory
        particularly with Recovery Act positions,     Reviews
        and require additional diversity training.
                                                      The Inspector General Act of 1978, as
   ➤➤   In response to a Georgia homeowner’s          amended, requires the OIG to review and
        complaint about “shoddy weatherization        comment upon legislation and regulations
        work,” Project Management Center              relating to Department programs and to make
        (Center) staff at the Department’s            recommendations concerning the impact of
        National Energy Technology Laboratory         such legislation or regulations on departmental
        visited the residence and verified that the   economy and efficiency. The OIG coordinated
        majority of the alleged damage was related    and reviewed 60 items during this reporting
        to weatherization activities. Center staff    period.
        subsequently instructed the grantee to
        have local agency employees return to the
        residence and make the necessary repairs.
        The grantee was further instructed that
        non-Department funds were to be used to
        finance the repairs.


Qui Tams
Since 1996, the OIG has been instrumental in
working with the Department of Justice in Qui
Tam cases. The OIG is currently working on 12
Qui Tam lawsuits involving alleged fraud against
the Government with potential liability in the
amount of approximately $306,425,000. These
cases are highly resource intensive, requiring
the active participation of OIG investigative and
audit assets. However, they have proven to result
in a high return on our investment of resources.




                                          October 1, 2009 – March 31, 2010
                                                                                               21
Semiannual Report to Congress




                            this page intentionally left blank




       Department of Energy – Office of Inspector General
 22
Semiannual Report to Congress




                  Appendix 1 – Reports

                        Recovery Act Reports Issued
                           October 1, 2009 – March 31, 2010

     Report                                            Date               Questioned
     Number                     Title                 Issued    Savings     Costs

                  The Department’s Management
   IG-0827                                           10-14-09
                  of the ENERGY STAR Program

                  Management Challenges at the
   IG-0832                                           12-11-09
                  Department of Energy

                  The Department of Energy’s
                  Quality Assurance Process for
   OAS-RA-10-01   Prime Recipients’ Reporting        10-21-09
                  for the American Recovery and
                  Reinvestment Act of 2009

                  Management Alert on the
                  Department’s Monitoring of
   OAS-RA-10-02                                      12-03-09
                  the Weatherization Assistance
                  Program in the State of Illinois

                  Selected Department of Energy
                  Program Efforts to Implement
   OAS-RA-10-03                                      12-07-09
                  the American Recovery and
                  Reinvestment Act

                  Progress in Implementing
                  the Department of Energy’s
   OAS-RA-10-04   Weatherization Assistance          02-19-10
                  Program Under the American
                  Recovery and Reinvestment Act

                  Management Controls over the
                  Department’s WinSAGA System
   OAS-RA-10-05                                      03-25-10
                  for Energy Grants Management
                  Under the Recovery Act




                                        October 1, 2009 – March 31, 2010
                                                                                   23
Semiannual Report to Congress



                                 Audit Reports Issued
                              October 1, 2009 – March 31, 2010

      Report                                             Date                  Questioned
      Number                     Title                  Issued    Savings        Costs

                   The Department’s Unclassified
  IG-0828                                              10-16-09
                   Cyber Security Program – 2009

                   Work for Others Performed by
  IG-0829          the Department of Energy for        10-26-09
                   the Department of Defense

                   The Federal Energy Regulatory
  IG-0830          Commission’s Unclassified Cyber     10-29-09
                   Security Program – 2009

                   The Office of Science’s
  IG-0831          Management of Information           11-20-09   $1,108,077
                   Technology Resources

                   The Disposition of Uranium-233 at
  IG-0834                                              02-18-10
                   Oak Ridge National Laboratory

                   Management Controls over
                   Selected Aspects of the
  OAS-M-10-01                                          11-13-09
                   Department of Energy’s Human
                   Reliability Program

                   Seismic Design of Nuclear
  OAS-L-10-01      Facilities within the Department    01-08-10
                   of Energy

                   Follow-up Audit of Test Readiness
  OAS-L-10-02                                          10-21-09
                   at the Nevada Test Site

                   Processing of Sodium-Bearing
  OAS-L-10-03      Waste at the Idaho National         02-04-10
                   Laboratory


                   Audit Coverage of Cost
                   Allowability for DynMcDermott
                   Petroleum Operations Company
  OAS-V-10-01      During Fiscal Years 2005,           11-10-09
                   2006, 2007 and 2008 Under
                   Department of Energy Contract
                   No. DE-AC96-03PO92207




         Department of Energy – Office of Inspector General
 24
Semiannual Report to Congress



                              Audit Reports Issued
                           October 1, 2009 – March 31, 2010

    Report                                              Date               Questioned
    Number                     Title                   Issued    Savings     Costs

                Audit Coverage of Cost Allowability
                for Lawrence Livermore National
  OAS-V-10-02   Laboratory During Fiscal Year 2007    11-09-09              $2,570,291
                Under Department of Energy
                Contract No. W-7405-ENG-48

                Audit Coverage of Cost Allowability
                for Savannah River Nuclear
  OAS-V-10-03   Solutions, LLC Under Department       11-24-09
                of Energy Contract No. DE-AC09-
                08SR22470 During Fiscal Year 2008

                Audit Coverage of Cost Allowability
                for B&W Technical Services Y-12,
  OAS-V-10-04   LLC Under Department of Energy        12-04-09              $4,588,073
                Contract No. DE-AC05-00OR22800
                for Fiscal Year 2008

                Audit Coverage of Cost Allowability
                for UChicago Argonne, LLC Under
  OAS-V-10-05   Department of Energy Contract No.     12-16-09               $135,689
                DE-AC02-06-CH11357 During Fiscal
                Year 2008

                Audit Coverage of Cost Allowability
                for Princeton Plasma Physics
                Laboratory Under Department of
  OAS-V-10-06                                         12-22-09
                Energy Contract No. DE-AC02-
                76CH03073 During Fiscal Years
                2005 through 2008

                Audit Coverage of Cost Allowability
                for Ames Laboratory During
                Fiscal Years 2007 and 2008 Under
  OAS-V-10-07                                         01-07-10                   $280
                Department of Energy Contracts
                W-7405-ENG-82 and DE-AC02-
                07CH11358

                Audit Coverage of Cost Allowability
                for National Security Technologies,
  OAS-V-10-08   LLC During Fiscal Year 2006 Under     01-28-10                $84,952
                Department of Energy Contract No.
                DE-AC52-06NA25946



                                       October 1, 2009 – March 31, 2010
                                                                                    25
Semiannual Report to Congress



                                   Audit Reports Issued
                                October 1, 2009 – March 31, 2010

        Report                                              Date               Questioned
        Number                     Title                   Issued    Savings     Costs

                      Audit Coverage of Cost
                      Allowability for West Valley
                      Nuclear Services Company
      OAS-V-10-09     During Fiscal Years 2005            03-03-10             $15,295,618
                      Through 2008 Under
                      Department of Energy Contract
                      No. DE-AC24-81NE44139

                      Federal Energy Regulatory
      OAS-FS-10-01    Commission’s Fiscal Year 2009       11-09-09
                      Financial Statement Audit

                      The Department of Energy’s
      OAS-FS-10-02    Fiscal Year 2009 Consolidated       11-12-09
                      Financial Statements

                      Management Letter on the
                      Audit of the Department of
      OAS-FS-10-03                                        12-22-09
                      Energy’s Consolidated Financial
                      Statements for Fiscal Year 2009

                      Information Technology
                      Management Letter on the Audit
      OAS-FS-10-04    of the Department of Energy’s       12-22-09
                      Consolidated Balance Sheet for
                      Fiscal Year 2009

                      Uranium Enrichment
                      Decontamination and
      OAS-FS-10-05    Decommissioning Fund’s Fiscal       02-18-10
                      Year 2008 and 2007 Financial
                      Statement Audit




            Department of Energy – Office of Inspector General
 26
Semiannual Report to Congress



                          Inspection Reports Issued
                           October 1, 2009 – March 31, 2010

    Report                                                                      Date
    Number                                   Title                             Issued

  IG-0833       Removal of Categories I and II Special Nuclear Material from   01-15-10
                Sandia National Laboratories – New Mexico

  INS-L-10-01   LLNL Protective Force Security Incident Response Plan          01-22-10

  INS-O-10-01   Employment Verification at Savannah River Site                 11-05-09

  S09IS024      Review of Allegations Involving Potential Misconduct by a      12-29-09
                Senior Office of Environmental Management Official

  S09IS025      A Conflict of Interest within the Office of Secure             03-24-10
                Transportation (non-public report)




                                     October 1, 2009 – March 31, 2010
                                                                                          27
Semiannual Report to Congress




                            this page intentionally left blank




       Department of Energy – Office of Inspector General
 28
Semiannual Report to Congress




                              Appendix 2 – Tables

              OIG Issued Audit Reports with Recommendations
                          for Better Use of Funds
                                           October 1, 2009 – March 31, 2010
                                                        (Dollars in Thousands)
            The following table shows the total number of audit reports and the total dollar value of the
                        recommendations that funds be put to better use by management:

                                                    Total               One Time               Recurring            Total
                                                   Number                Savings                Savings            Savings

    A. Those issued before the
       reporting period for which
       no management decision                           6            $1,047,896,445                         $0   $1,047,896,445
       has been made:*

    B. Those issued during the
                                                       24                  $1,108,077                       $0       $1,108,077
       reporting period:

    C. Those for which a
       management decision
       was made during the                             20                 $41,525,000                       $0     $41,525,000
       reporting period:*

          (i) Agreed to by
                                                                          $11,500,000                       $0     $11,500,000
              management:

          (ii) Not agreed to by
                                                                          $13,025,000                       $0     $13,025,000
               management:

    D. Those for which a
       management decision is                           7                               $0                  $0               $0
       not required:

    E. Those for which no
       management decision has
       been made at the end of                          3            $1,024,479,522                         $0   $1,024,479,522
       the reporting period:*

    Definition of Terms Used in the Table
    Funds put to better use: Funds that could be used more efficiently by implementing recommended actions.
    Unsupported costs: A cost that is not supported by adequate documentation. Questioned costs include unsupported costs.
    Management decision: Management’s evaluation of the finding and recommendations included in the audit report and the
    issuance of a final decision by management concerning its response.

  *The figures for dollar items include sums for which management decisions on the savings were deferred.



                                                        October 1, 2009 – March 31, 2010
                                                                                                                              29
Semiannual Report to Congress


                  OIG Issued Audit Reports with Questioned Costs
                                                October 1, 2009 – March 31, 2010
                                                              (Dollars in Thousands)

                                  The following table shows the total number of audit reports and
                                    the total dollar value of questioned and unsupported costs.

                                                                            Total                 Questioned                    Unsupported
                                                                           Number                   Costs                          Costs

    A. Those issued before the reporting
       period for which no management                                            0                  $85,377,966                            $123,000
       decision has been made:*

    B. Those issued during the reporting
                                                                                 6                  $22,674,903                                       $0
       period:

    C. Those for which a management
       decision was made during the                                              5                  $75,018,692                                       $0
       reporting period:*

         (i) Value of disallowed costs:                                                             $21,669,212                                       $0

         (ii) Value of costs not disallowed:                                                        $30,856,843                                       $0

    D. Those for which a management
                                                                                 1                       $135,689                                     $0
       decision is not required:

    E. Those for which no management
       decision has been made at the end                                         0                  $55,526,814                            $123,000
       of the reporting period:*

    Definition of Terms Used in the Table
    Questioned costs: A cost that is (1) unnecessary; (2) unreasonable; (3) unsupported; (4) or an alleged violation of law, regulation, contract, etc.
    Unsupported costs: A cost that is not supported by adequate documentation. Questioned costs include unsupported costs.
    Management decision: Management’s evaluation of the finding and recommendations included in the audit report and the
    issuance of a final decision by management concerning its response.

 *The figures for dollar items include sums for which management decisions on the savings were deferred.




               Department of Energy – Office of Inspector General
 30
Semiannual Report to Congress


Reports Lacking                                     Prior Significant
Management Decision                                 Recommendations Not
The Department has a system in place to track       Implemented
audit reports and management decisions. Its         As of March 2010, closure actions on
purpose is to ensure that recommendations and       recommendations in 29 OIG reports had not
corrective actions indicated by audit agencies      been fully implemented within 12 months
and agreed to by management are addressed as        from the date of report issuance. The OIG is
efficiently and expeditiously as possible. Listed   committed to working with management to
below is one audit report over six months old       expeditiously address the management decision
that was issued before the beginning of the         and corrective action process, recognizing
reporting period and for which no management        that certain initiatives will require long-
decision had been made by the end of this           term, sustained, and concerted efforts. The
reporting period. The reason a management           Department has closed 171 recommendations
decision had not been made and the estimated        in the past 6 months. Management updates the
date for achieving a management decision is         Departmental Audit Report Tracking System
described below.                                    on a quarterly basis, most recently in September
                                                    2009. Information on the status of any report
  Management Audit
                                                    recommendation can be obtained through the
  IG-0753: Recovery Costs for the Proprietary       OIG’s Office of Audit Services and Office of
  Use of the Advanced Photon Source,                Inspections and Special Inquiries.
  January 11, 2007 — The Office of the
  Chief Financial Officer is working with
  the Department and the Office of General
  Counsel to address a complex accounting
  issue raised in the report. A final
  management decision is expected before
  December 31, 2010.




                                         October 1, 2009 – March 31, 2010
                                                                                              31
Semiannual Report to Congress



               Summary of Inspections and Special Inquiries Activities
                                                 October 1, 2009 – March 31, 2010

  Inspections/Special Inquiries open as of October 1, 2009                                                                                        29

  Inspections/Special Inquiries opened during this reporting period                                                                                8

  Inspections/Special Inquiries closed during this reporting period                                                                                8

  Inspections open as of March 31, 2010                                                                                                           29

  Reports issued (includes non-public reports)                                                                                                     5


  Report Recommendations:
                Issued this reporting period                                                                                                      10
                Accepted by management this reporting period                                                                                      10
                Implemented by management this reporting period                                                                                   16

  Funds recovered                                                                                                                                 $0

  Complaints Referred to Department management/other Government agencies                                                                     107
                 Referred to Department management requesting a response for OIG Evaluation                                                       41

  HOTLINE ACTIVITY

  Hotline calls, letters, emails, walk-ins, and Qui Tams                                                                                     854

  Hotline complaints resolved immediately or redirected1                                                                                     533

                 Hotline Complaints predicated                                                                                               321

  Unresolved Hotline predications from previous reporting period2                                                                                 30

                 Total Hotline Complaints predicated                                                                                         351

  Hotline predications transferred to the Management Referral System                                                                         148

  Hotline predications closed based upon preliminary OIG activity                                                                            163

  Hotline predications open at the end of the reporting period                                                                                    40

                 Total Hotline predications                                                                                                  351

      Includes complaints outside the purview of the Office of Inspector General; or the complainants were referred to the appropriate Federal,
      1

      State, local, or private organization for assistance, if applicable.
      2
          This figure was incorrectly reported as “19” for the reporting period ending September 30, 2009. Upon subsequent review, the reported
          figure includes the revised and current total.




                   Department of Energy – Office of Inspector General
 32
Semiannual Report to Congress



                              Summary of Investigative Activities
                                          October 1, 2009 – March 31, 2010

   Cases open as of October 1, 2009                                                                                                   213

   Cases opened during period                                                                                                          76

   Cases closed during period                                                                                                          62

   Multi-Agency Task Force Cases Opened                                                                                                24

   Qui Tam investigations opened                                                                                                        1

   Total Open Qui Tam investigations as of March 31, 2010                                                                              12

   Cases currently open as of March 31, 2010                                                                                          227

   IMPACT OF INVESTIGATIONS:

   Administrative discipline and other management actions                                                                              47

   Recommendations to management for positive change and other actions                                                                 23

   Suspensions/Debarments                                                                                                               9

   Accepted for prosecution*                                                                                                           24

   Indictments                                                                                                                         20

   Criminal convictions                                                                                                                19

   Pretrial diversions                                                                                                                  2

   Civil actions                                                                                                                       19

   TOTAL DOLLAR IMPACT**
   (Fines, settlements, recoveries)                                                                                  $11,408,290
   *Some of the investigations accepted during the 6-month period were referred for prosecution during a previous reporting period.
   **Some of the money collected was the result of task force investigations.




                                                        October 1, 2009 – March 31, 2010
                                                                                                                                        33
Semiannual Report to Congress




                          this page intentionally left blank




       Department of Energy – Office of Inspector General
 34
Semiannual Report to Congress




 Feedback Sheet
 The contents of the March 2010 Semiannual Report to Congress comply with
 the requirements of the Inspector General Act of 1978, as amended. If you
 have any suggestions for making the report more responsive, please complete
 this feedback sheet and return it to:

 United States Department of Energy
 Office of Inspector (IG-10)
 1000 Independence Avenue, SW
 Washington, D.C. 20585

 ATTN: Felicia Jones




 Name:_________________________________________________________________


 Daytime Telephone Number:___________________________________


 Comments/Suggestions/Feedback:




 For media inquiries, please dial (202) 253-2162 for assistance.




                                  October 1, 2009 – March 31, 2010
                                                                               35
Semiannual Report to Congress




                          this page intentionally left blank




       Department of Energy – Office of Inspector General
 36
      u.S. DePARTMenT OF eneRGY
     OFFICe OF InSPeCTOR GeneRAl


                       hOTlIne
   Call the hOTlIne if you suspect Fraud, Waste,
  Abuse, or Mismanagement by a DOe employee,
            Contractor, or Grant Recipient




          Call 1-800-541-1625 or (202) 586-4073

Additional information on the OIG and reports can be found at
                  www.ig.energy.gov



                  u.S. Department of energy
                1000 Independence Ave., S. W.
                   Washington, DC 20585
Semiannual Report to Congress




                          this page intentionally left blank




       Department of Energy – Office of Inspector General
 38
DEpartMEnt OF EnErGY, OFFIcE OF InSpEctOr GEnEral
